Nos.20-429,20--454
INTHE

hpmnt C!tnurt nf t!Jt lltttttb hits
AMERICAN MEDICAL AsSOCIATION, et al., Petitioners,

v.
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND
HUMAN SERVICES, et al., Respondents.
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND
HUMAN SERVICES, et al., Petitioners,
V.

MAYOR AND CITY COUNCIL OF BALTIMORE,

Respondent.

ON WRITS OF CERTIORARI TO THE
UNITED STATES COURTS OF APPEALS
FOR THE FOURTH AND NINTH CIRCUITS

CERTIFICATE OF SERVICE

I, Paul R.Q. Wolfson, a member of the bar of this Court, hereby certify that, on
this 18th day of March, 2021, all parties required to be served have been served with an
electronic copy of the Opposition of Petitioners in 20-429 and Respondent in 20-454 to
Motions of Ohio et al. and the American Association of Pro-Life Obstetricians &
Gynecologists et al. for Leave to Intervene pursuant to an agreement between counsel
for the parties dispensing with the requirement to serve paper copies.

Bh:e,~

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
paul.wolfson@wilmerhale.com

SERVICE LIST
ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania A venue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL

28LibertyStreet
New York, NY 10005-1400
(212) 416-8016
Barbara.underwood@ag.ny.gov

JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM

440 First Street NW, Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
(614) 466-8980
benjamin.flowers@ohioattorneygeneral.gov

